HHS/OIG-Audit--Dental Health Professions Student Loans Program at the University of Detroit Mercy, Detroit, Michigan (A-05-98-00039)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Dental Health Professions Student Loans Program at the University of Detroit
Mercy, Detroit, Michigan (A-05-98-00039)
November 24, 1998
Complete Text of Report is available in PDF format
(463 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our audit of the Dental Health Professions
Student Loans (HPSL) Program at the University of Detroit Mercy. The HPSL program
was implemented through the Public Health Service Act. The Health Resources
and Services Administration (HRSA) has overall management responsibilities for
the program at the Federal level.
We determined that the University was generally in compliance with regulations
concerning the administration of loans. However, our audit revealed that the
University was carrying uncollectible loans in their accounting records.